March 5, 2007

JERRY D. LANE
VICE PRESIDENT, CAPITAL METRO AREA

JOSEPH M. LENNON
MANAGER, SURFACE OPERATIONS

SUBJECT: Audit Report — Rail Management Information System Service Claim
         Payments — Capital Metro Distribution Networks Office
         (Report Number FT-AR-07-008)

This report presents issues concerning Rail Management Information System (RMIS)
service claim payments at the Capital Metro Distribution Networks Office (Project
Number 06BM003FT002). We identified these issues during our audit of the fiscal year
(FY) 2006 Postal Service Financial Statements – St. Louis Information Technology and
Accounting Service Center (IT/ASC).

                                                  Background
RMIS is a computerized system that provides certification for rail payments and trailer
movement control simultaneously. The system operates in a real time mode; therefore,
its success is dependent on the employees responsible for collecting and inputting the
required data. Origin distribution networks offices (DNO) process all RMIS service
claims for manual payments (for example, line haul claims1). However, RMIS
processes most line haul payments automatically. RMIS service claim payments are
processed manually when the origin bulk mail center uses erroneous routing
instructions; when the origin, intermediate point, or destination Postal Service facility
personnel enter erroneous data; or when an emergency routing2 is created.




1
  Line haul claims are payment requests for services rendered for delivering mail from an originating facility to a
destination facility.
2
  Emergency routing is used to meet unusual needs that interrupt normal transportation services, such as a
catastrophic event or a labor dispute.
Rail Management Information System Service                                                          FT-AR-07-008
Claim Payments — Capital Metro Distribution Networks Office



                            Objective, Scope, and Methodology
The objective of the audit was to determine whether internal controls over RMIS at the
Capital Metro DNO were adequate to ensure management properly authorized service
claim payments made to rail carriers, and employees accurately and timely recorded the
transactions into the payment system.

To accomplish our objective, we initially examined all 70 service claim payments in
RMIS that were processed by the Capital Metro DNO between October 1, 2005, and
May 6, 2006 (totaling $152,871). Based on the results of our initial review of the 70
payments, we expanded our review to include 269 additional service claim payments
processed during FYs 2005 and 2006:3

•   We used RMIS payment data previously extracted during our FYs 2005 and 2006
    financial statement audits to obtain 175 service claim payments, totaling $297,946,
    processed from October 13 through December 29, 2004; January 5 through May 11,
    2005; and May 7 through June 6, 2006.

•   We used RMIS payment data available at the time of our audit to obtain all 94
    service claim payments, totaling $204,311, processed between June 7 and July 26,
    2006.

We relied on computer-generated data extracted from RMIS to calculate the monetary
impact of the internal control weakness. However, we were unable to validate the
accuracy of system data because supporting documentation was not available.

We conducted this audit from May 2006 through March 2007 in accordance with
generally accepted government auditing standards and included such tests of internal
controls as we considered necessary under the circumstances. We discussed our
observations and conclusions with management officials and included their comments
where appropriate.

                                        Prior Audit Coverage
During our FY 2005 audit,4 we reported personnel at the Seattle Branch DNO did not
always obtain appropriate supporting documentation for service claim payments. We
recommended management strengthen control procedures and ensure future contract
requirements include adequate provisions covering the service claim payment process.
Management agreed to strengthen control procedures by requesting suppliers submit a


3
  Because RMIS payment data was only available within the system for 60 days, we were not able to completely
expand our scope to include all payments made during FYs 2005 and 2006.
4
  Fiscal Year 2005 Postal Service Financial Statements Audit - St. Louis Information Technology and Accounting
Service Center (Report Number FT-AR-06-019, dated April 21, 2006).




                                                        3
Rail Management Information System Service                                                               FT-AR-07-008
Claim Payments — Capital Metro Distribution Networks Office


copy of a delivery receipt as part of the documentation used to review service claims.
Management also agreed to update future contracts to include requesting delivery
confirmation.

                                                     Results
Internal controls over RMIS at the Capital Metro DNO were not adequate to ensure
management properly authorized service claim payments to rail carriers, and
employees accurately and timely recorded transactions into the payment system.
Specifically, Capital Metro DNO personnel did not maintain supporting documentation
for 338 of the 339 sampled RMIS service claim payments as required by Postal Service
policy. Without the required documentation, we were unable to ascertain whether
payments were processed accurately and timely.

Postal Service policy requires the DNO to prepare a documentation package, which
includes verification of the carrier’s arrival at the destination,5 prior to entering claims
into RMIS.6 The policy also requires the DNO to maintain records submitted for service
claims for a period of 2 years after the date of the payment.7

Capital Metro DNO personnel were not aware of the requirement to prepare a package
of supporting documentation before service claim payments are entered into RMIS and
approved. In addition, they were not aware of the retention period policy. Furthermore,
this Postal Service policy does not require the supervisor to review the package prior to
approving payment.

When service claim payment documentation is not retained, as required, and
supervisors are not required to review documentation prior to approval, the Postal
Service increases its risk of erroneous, duplicate, or fraudulent payments. During the
timeframes reviewed, the Postal Service processed undocumented RMIS service claim
payments valued at approximately $356,807 in FY 2006 and approximately $297,946 in
FY 2005. We will report total undocumented service claim payments of $654,753 as
unsupported questioned costs in our Semiannual Report to Congress.8




5
  Examples of verification of arrival include an arrival record of the delivery destination in a Postal Service computer
application, or a signed delivery receipt from the supplier.
6
  Management Instruction PO-540-2006-2, Surface Intermodal/Rail Payments Manual Processing, dated May 1,
2006, pages 7 and 8, was updated to include the request that carriers submit copies of signed delivery receipts, if
available, and the Postal Service verify arrival at the destination through information from a Postal Service computer
application, or a signed delivery receipt of the supplier.
7
  Management Instruction PO-540-2006-2, Surface Intermodal/Rail Payments Manual Processing, dated May 1,
2006, pages 7 and 8.
8
  We acknowledge these payments may have been proper. However, because source documents did not exist at the
time of our audit, we were not able to validate them.




                                                           4
Rail Management Information System Service                                   FT-AR-07-008
Claim Payments — Capital Metro Distribution Networks Office


Recommendations

We recommend the Vice President, Capital Metro Area, direct distribution networks
office personnel to:

1.   Prepare a supporting documentation package prior to entering service claims in the
     Rail Management Information System.

2.   Maintain records used to support service claim payments made in the Rail
     Management Information System for 2 years after the payment date.

Management’s Comments

Management agreed with recommendations 1 and 2; however, they did not completely
agree with the finding. Management disagreed with the statement that Capital Metro
DNO personnel were not aware of the requirement to prepare a package of supporting
documentation before service claim payments were entered into RMIS and approved.
Management contends it has been their practice to prepare supporting documentation
packages and verify services prior to approving payment. Further, with regard to the
$654,753 of unsupported questioned costs, management disagreed with the statement
that the Postal Service processed undocumented RMIS service claim payments during
the timeframes reviewed and stated that no finding was presented supporting the
assertion that improper payments were made. Management conceded that employees
did not adhere to the Management Instruction regarding retention of supporting
documentation but stated supporting data was gathered and verification of service was
attained prior to approving payment. Management continues to believe the manual rail
payments were proper and justified, although supporting documentation was discarded.

Management did not provide a target date for corrective action in their initial written
comments. However, through subsequent communication, management indicated they
currently comply with both recommendations. Management‘s comments, in their
entirety, are included in Appendix A.

Evaluation of Management’s Comments

We continue to believe Capital Metro DNO personnel were not aware of the
requirement to prepare a package of supporting documentation before service claim
payments were entered into RMIS and approved. Our review of supporting
documentation for the most recent transactions disclosed that DNO personnel did verify
that a payment was not processed previously. However, we found no evidence of a
package, including documentation to support van assignment, verification of arrival, and
verification of RMIS contract master rate.

Also, as previously stated, we acknowledge these payments may have been proper.
However, because source documents did not exist at the time of our audit, or supporting




                                                   5
Rail Management Information System Service                                                               FT-AR-07-008
Claim Payments — Capital Metro Distribution Networks Office


documentation packages were not complete, we were not able to validate them. As
such, we consider those payments undocumented and classify them as unsupported
questioned costs in accordance with the definition provided in the Inspector General Act
of 1978.9

Since management stated they agreed and now comply with our recommendations,
their comments are responsive to recommendations 1 and 2, and the actions taken
should correct the issues identified in the finding.

Recommendations

We recommend the Manager, Surface Operations:

3.   Revise existing Postal Service policy to require supervisors to review supporting
     documentation before approving Rail Management Information System service
     claim payments.

4.   Communicate the revised policy to appropriate Postal Service personnel.

Management’s Comments

Management agreed with recommendations 3 and 4. Management will revise
Management Instruction PO-540-2006-2, Rail Payments Manual Processing, to require
supervisors and contracting officers, if appropriate, to review and approve supporting
documentation for RMIS service claim payments. The revised policy will be
communicated to appropriate Postal Service personnel. Management did not provide a
target date for corrective action in their initial written comments. However, through
subsequent communication, they stated the target date for corrective actions is March
31, 2007.

Management did not agree with the claim of unsupported questioned costs. They
believe that although documentation was not available at the time of our audit to support
RMIS service claim payments, there is no evidence that appropriate paperwork did not
exist at the time the payments were processed.

Management also offered additional suggestions to the report. Management‘s
comments, in their entirety, are included in Appendix B.




9
 Inspector General Act of 1978, 5 U.S.C. App. § 5 (f)(1)(B) states the term “questioned cost” is a cost that is
questioned by the office because of a finding that, at the time of the audit, such cost is not supported by adequate
documentation.




                                                           6
Rail Management Information System Service                                  FT-AR-07-008
Claim Payments — Capital Metro Distribution Networks Office


Evaluation of Management’s Comments

Management’s comments are responsive to recommendations 3 and 4 and actions
planned should correct the issues identified in the finding. As appropriate, we
incorporated management’s additional suggestions into the report. Further, as
discussed in our Evaluation of Management’s Comments for Recommendations 1 and
2, we acknowledge that these payments may have been proper. However, due to the
issues identified, we classify them as unsupported questioned costs in accordance with
the definition provided in the Inspector General Act of 1978.

The U.S. Postal Service Office of Inspector General (OIG) considers recommendations
3 and 4 significant, and therefore requires OIG concurrence before closure.
Consequently, the OIG requests written confirmation when corrective action(s) are
completed. These recommendations should not be closed in the follow-up tracking
system until OIG provides written confirmation that the recommendation can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lorie Siewert, Director,
Financial Reporting, or me at (703) 248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Operations

Attachments

cc: William P. Galligan
    Lynn Malcolm
    Vincent H. DeVito, Jr.
    Stephen J. Nickerson
    Anthony M. Pajunas
    Jeffery L. Jones
    Deborah A. Kendall




                                                   7
Rail Management Information System Service                    FT-AR-07-008
Claim Payments — Capital Metro Distribution Networks Office


   APPENDIX A. MANAGEMENT’S COMMENTS – Capital Metro DNO




                                                   8
Rail Management Information System Service                    FT-AR-07-008
Claim Payments — Capital Metro Distribution Networks Office




                                                   9
Rail Management Information System Service                    FT-AR-07-008
Claim Payments — Capital Metro Distribution Networks Office


     APPENDIX B. MANAGEMENT’S COMMENTS – Surface Operations




                                                   10
Rail Management Information System Service                    FT-AR-07-008
Claim Payments — Capital Metro Distribution Networks Office




                                                   11
